OCKLE

Le g al Briefs E-Mail Address:

Cc

  

2311 Douglas Street

Omaha, Nebraska 68102-1214 Est. 1923 contact@cocklelegalbriefs.com
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com

Fax: (402) 342-4850 No. 19-743

CURTIS T. HILL, JR., Attorney General of the State of
Indiana, in his official capacity; KRISTINA BOX, M.D..
Commissioner of the Indiana State Department of Health,

in her official capacity; JOHN STROBEL, M.D.,
President of the Medical Licensing Board of Indiana,
in his official capacity; and KENNETH P, COTTER,
St. Joseph County Prosecutor, in his official capacity,

Petitioners,

v.
WHOLE WOMAN’S HEALTH ALLIANCE;
ALL-OPTIONS, INC.; and JEFFREY GLAZER, M.D.,
Respondents.

AFFIDAVIT OF SERVICE

1, Andrew Cockle, of lawful age, being duly sworn, upon my oath state that I did, on the 20th day of February, 2020, send out
from Omaha, NE 2 package(s) containing 3 copies of the BRIEF IN OPPOSITION in the above entitled case. All parties
required to be served have been served by Priority Mail. Packages were plainly addressed to the following:

SEE ATTACHED
To be filed for:

DIPTI SINGH STEPHANIE TOTI
LAWYERING PROJECT Counsel of Record
3371 Glendale Blvd., #320 AMANDA L. ALLEN
Los Angeles, CA 90039 LAWYERING PROJECT

25 Broadway, 9th Floor
RUPALI SHARMA New York, NY 10004
LAWYERING PROJECT (646) 490-1083
110 Winter St., #4 stoti@lawyeringproject.org
Portland, ME 04102

Attorneys for Respondents

KATHRINE D. JACK
JACK LAW OFFICE LLC
1 Courthouse Plaza
Greenfield, IN 46140

Subscribed and sworn to before me this 20th day of February, 2020.
fam duly authorized under the laws of the State of Nebraska to administer oaths.

PATRICIA BILLOTTE

General Notary . .
State of Nebraska , Le Queda ,

My Commission Expires Nov 24, 2020

 

Notary Public Affiant 39395

 
Thomas M. Fisher

Office of the Indiana Attorney General
IGC South, 5th Floor

302 W. Washington

Indianapolis, IN 46204

317-232-6255

tom.fisher@atg.in.gov

Counsel of Record for Petitioners

Stephen Chad Meredith

Office of the Kentucky Attorney General

700 Capitol Avenue, Room 118

Frankfort, KY 40601

502-696-5300

chad.meredith@ky.gov

Counsel of Record for Amici Curiae Kentucky, et al.
